No.
Supreme Court, U.S.
FILED

JUL 2 9 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
WASHINGTON, DC 20543

PATRICK H. TORRENCE

— PETITIONER

(Your Name)
vs.

STATE OF ALASKA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

ALASKA COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

PATRICK H. TORRENCE
(Your Name)

SRING CREEK CORRECTIONS 3600 Bette Cato Avenue

(Address)
Seward Alaska 99664
(City, State, Zip Code)
(907) 224-8200
(Phone Number)
2 of 6

RECEIVED
AUG 1 1 2020

QUESTION(S) PRESENTED
1) The decision of the State of Alaska, and the Alaska Court of Appeals are
inconsistent with the United States Fourteenth Amendment rights to fair and
impartial due process, and the equal protection of the law.
2) The decision of the State of Alaska, and the Alaska Court of Appeals are
inconsistent with the United States Sixth Amendment rights to the effective
assistance of counsel , and the right to compulsory process for obtaining favorable
witnesses.
3) The Decision of the State of Alaska, and the Alaska Court of Appeals are
inconsistent with the United States Fourth Amendment rights to be free from
unreasonable searches and seizures and the issuance of warrants without'probable
cause.
4) The decision of the State of Alaska, and the Alaska Court of Appeals are
inconsistent with the United States Fifth Amendment rights to be free from (l)
required to answer for a capital or otherwise infamous offense unless a grand
jury issues an indictment or presentment, (presentment flawed)., (2) Subjected
to double jeopardy, (3) compelled to engage in self-incrimination on a criminal
matter, (4) deprived of life, liberty, or property without due process of law.
5) The decision of the State of Alaska, and the Alaska Court of Appeals are
inconsistent with the United States Eighth Amendment rights to free from
excessive bail, excessive fines, and cruel and unusual punishment.

CENT V. WEST VIRGINIA: Due process of 1aw is interried to secure citizens against ay arbitrary
deprivation by the gpvermait of rigjnts relating to life, liberty, or property.
3 of 6

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
DO All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Appeal from the Superior Court, Third Judicial District, Anchorage, Michael
L. Wolverton, Judge.
Appearances: Elizabeth D. Friedman, Law Office at 2773 Carolee Court Redding,
CA 96002, under contract with the Office of Public Advocacy, Anchorage, for the
Appellant. Ann B, Black, Assistant Attorney General, Office of Criminal Appeals,
Anchorage, and Kevin G. Clarkson, Attorney General, Juneau, for the Appellee.
Before: Allard, Chief Judge, Harbison, Judge, and Coats, Senior Judge.

RELATED CASES
STRICTLAND V. WASHINGTON 466 U.S. 668,687-88 (1984)
DENT V. WESTVIRGINIA, 129 U.S. 114, 32 L.Ed. 623,9 S. Ct. 231 (1889)
MIRANDA V. ARIZONA, 384 U.S,. 436, 86 S. Ct. 1602, 16 L.Ed. 2d 694 (1966)
REX V. TEEPLES, 753 F.2d 840 (1985)
JOHNSON v. U.S., 352 U.S. 565, 1 L.Ed. 2d 593, 77S, Ct. 550 (1957) Petitioner
filing appeal informa pauperis is entitled to counsel.
ROMERO v. TANSY, 46 F. 3d 1024 (10th Cir. 1995): "A defendant's rights to effective
assistance of counsel applies not just at trial but on direct appeal"

STRICTLAND V. WASHINGTON 466 U.S. 668, 687-88 (1984) ineffective assistance
4 of 6

TABLE OF CONTENTS
OPINIONS BELOW

1 of 14

JURISDICTION

,2ofl4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3 of 14

STATEMENT OF THE CASE

4 of 14

REASONS FOR GRANTING THE WRIT

12.ofl4

CONCLUSION

14.of14

INDEX TO APPENDICES
APPENDIX A - 1-46
APPENDIX B - 1-761

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

MIRANDA V. ARIZONA, 384 U.S. 436. 86 S. Ct. 1602. 16 L.Ed. 2d. 694 (1966)
Rights against improper, and illegal interrogation fifth amendment.

5 of 6

TABLE OF AUTHORITIES CITED
CASES
STRICTLAND v. WASHINGTON 466 U.S. 668, 687-88 (1984)

PAGE NUMBER

DENT v. WESTVIRGINIA, 129 U.S. 114, 32 L.Ed. 623, 9 S. Ct. 231. (1889)
MIRANDA v. ARIZONA, 384 U.S. 436, 86 S. Ct. 1602, 16 L.Ed. 2d. 694 (1966)
REX v. TEEPLES, 752 F. 2d 840 (1985)
JOHNSON v. U.S., 352 U.S. 565, 1 L.Ed. 2d 593, 77S, Ct. 550 (1957) Petitioner
filing appeal informa pauperis is entitled to counsel.
ROMERO v. TANSY, 46 F. 3d 1024 (10th Cir. 1995): "A defendant's rights to effective
assistance of counsel applies not just at trial but on direct appeal".

STATUTES AND RULES
Appellate Rule 304 (a) the Court of Appeals decision is in conflict with a
defendant's Sixth Amendment rights to counsel because it upheld a conviction
where the attorney performed "below an objective standard of reasonableness".
Appellate Rule 304(c), the Court of appeal decision failed to analyze what level
of attorney incompetence must be shown in order not to be dismissed as "minimal
competence."
Under Appellate Rule 304(d), this Court should provide guidance to the appellate
and trial courts regarding standards for assessing attorney competence. There is
a propensity for justifying all trial decision as "strategic" without parameters
on what is a reasonable "strategic" decision. This Court should set guidelines
or factors to determine was constiyutes a "reasonable" and "competent" decision.

OTHER
Abuse of Discretion, abuse of rights doctrine.
Official misconduct 11.56.850 class A misdemeanor (as federal law permits)
Interference contract rights 11.76.110 class A misdemeanor (as federal law permits)
6 of 6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
|X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A 1 -46 to the petition and is
[x] reported at Alaska Supreme Court No. S-1.7760 6/3/2020 ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Alaska Court of Appeal No. 0111(Mar.4,2020) court
appears at Appendix A 1-46 to the petition and is
[x] reported at Alaska Court of Appeals Unpublished
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
l.of 14

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was Mar. 4. 2020 .
A copy of that decision appears at Appendix A 1-46 . .
cA

[X] A timely petition for rehearing was thereafter denied on the following date:
4/15/2020
, and a copy of the order denying rehearing
appears at Appendix A 1-46
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2 of 14

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
•Sixth Amendment: In all criminal prosecutions, the accused
shall enjoy the right...to have the assistance of counsel for his
defense." U.S. Const, amend. VI. See Right To Counsel.
Effective assistance of counsel. (1937) A conscientious, mea­
ningful legal representation, whereby the defendant is advised of
all rights and the lawyer performs all required tasks reasonably
according to the prevailing professional standards in criminal
cases. See Fed. R. Crim. P.44; 18 USCA § 3006A
Ineffective assistance of counsel. (1957) A representation in
which the defendant is deprived of a fair trial because the lawyer
handles the case unreasonably, usu. either by performing incompetently
or by not devoting full effort to the defendant, esp. because of a
conflict of interest.
. In determining whether a criminal defendant received
effective assistance of counsel, court generally consider several
factors: (l) whether the lawyer had previously handled criminal cases;
(2) whether strategic trial tactics were involved in the allegedly
incompetent action; (3) whether, and to what extent, the defendant
was prejudiced as a result of the lawyer's alleged ineffectiveness;
and (4) whether the ineffectiveness was due to matters beyond the
lawyers control - also termed inadequate assistance of counsel.

Abuse of Discretion: an adjudicator's failure to exercise sourri, reasonable aid legal decisicnmakirg. An appellate court’s standard for raaadrg a decision that is asserted to be grossly
unsound, unreasonable, illegal, or unsupported by the evidence.

3 of 14

STATEMENT OF THE CASE
There has been many unreasonable choices presented in this case that show
that trial counsel was incompetent regarding his decisions about the Miranda
issues, and the states counsel's decisions regarding the Fifth Amendment Miranda
violation. Which is their whole case, and the abuse of discretion surrounding
the decisions of review - thus for in the Alaska Court of Appeals.
The state of Alaska representatives my counsel included has created a life
sentence and conviction of 55 years with 5 suspended on charges and convictions
of 1) Sexual assault in the first degree of my wife: 35 years to serve; 2) Kid­
napping of my wife: 10 years to serve; 3) Assault in the second degree (choking)
of my wife: 5 years with 2 suspended; 4) Assault in the third degree (fear assault
with weapon): 5 years with 2.5 suspended. 50 years to serve for a now 55 year
old black male. Eligible for parole in 2035 at the age of 73. With zero sufficient
evidence, including trial evidence that refutes each convicted charge.
The jury was tainted by each state official including Judge Wolverton in his
abuse of discretion. The state of Alaska and counsel after telling the jurors I
pretty much conceded to all the 8 charges indicted: l) Sexual assault in the first
degree (oral sex) 2) Sexual assault in the first degree (vaginal) 3) Attempted
sexual assault in the first degree alternating theories, 4) Misconduct involving
a weapon in the third degree, 5) Kidnapping in the first degree, 6) Assault in the
Second degree (choking), 7) Assault in the third degree (fear assault with weapon) *
8) Assault in the fourth degree (reckless DV).
During trial there was a deal between my counsel and the prosecution without
my consent, and outside the presence of the jurors in the presence of judge
Wolverton: not to argue 1) Misconduct involving a weapon in the third degree,
2) Sexual assault in the first degree (fellatio), 3) Attempted sexual assault in
the first dergee, 4) Assault in the fourth degree (reckless DV). Dismissing those
4 of 14

stacked charges under 43(a) Alaska Statute. But keeping the remaining charges
although trial evidence of inconsistent statements refuted the remaining charges.
And there was the playback of the Fifth Amendment violation of Miranda v.
Arizona to the jurors at their request at the end of trial.They settled on my
trial attorney Chong Yim's

rendition of this violation as in I conceded to the

remaing charges when the evidence at trial clearly refutes all of the remaining
application of, law presented in this case.
OTHER EVIDENCE WRONGFUL CONVICTION # 1 USED AS
IMPROPER PROPENSITY EVIDENCE TO ENHANCE 3AN-08-3388CR
This conviction was obtained by abuse of process, and discretion. The fact
that the alleged victim perjured himself through inconsistent statement: stating
that he had been beat in the back of the head 12 times, simultaneously, while
being choked, and passed out from oxygen deprivation. This was clearly refuted by
the eyewitness Leticia Nuesca on direct during Trial: [Tr. 287-288] She never saw
Torrence strike Giles. [Tr. 293-297] She never saw Giles lose consciousness during
the struggle, and saw Giles get up from the floor. When Torrence released him [Tr.
297], These statements prove Mr. Giles lied about his injuries, and that there was
no serious physical injuries required for the application chose by the prosecution.
This was simply a self defense case. Proven by clear and convincing evidence. Thus
a malicious prosecution. Case 3AN-05-6190CR was used as an aggravator in case 3AN08-3388CR.
MORE MALFEASANCE
This case 3AN-05-6190CR has not been properly credited by the Department of
Corrections to date, (l) failure to properly adjudicate on 3/30/2008 the PTRP:
Charlie Stroll was the representative for (DOC). (2) this mistake resulted in
the ."time being credited to case 3AN-08-3388CR inappropriately, the sentence on
this case began 5/10/2012. 25 and % months later. The 24 months or 4 months to
serve should have been credited to 3AN-05-6190CR due to the sentences running
consecutive to each other. Common sense.... (3) The DOC are aware that 3AN-055 of 14

6190CR is an improper conviction which is why they have essentially removed it
from paper work here at the institution. And they were the first to alert me to
these facts when it was pointed out in the presentence report. From there the
cover up begin by the court officials abusing the process and failure to
properly over turn the malicious prosecution when by clear and convincing evidence
it malicious. You can not convict a person on a complete lie. When you do you
violate the person civil rights. I know the fact that I am African American and
lack the funds to pay for a decent qualified attorney, is the reason why I am
still fighting this case to date. This is a shame!
EXCULPATORY EVIDENCE ON THE FINAL 4 CHARGES AND CONVICTIONS:
CTN: 001, 002, 004, 007, 1: Assault 2nd degree, 11: Kidnapping, 111:Sexual
Assault 1st degree, IV: Assault in the third degree: Count 1: is refuted by my
wife's own statements during trial. See evidence enclosed page 697. GJ 41 L 11.
And cross examination with trial Co-Counsel Jeff Robinson [Tr. 415, 416, 418,
419, 420]. Count 11: is refuted by trial testimony see page 701 enclosed [Tr.
317-318, 457], and [Tr. 318, 324, 326], and [Tr. 330]. Count 111: is refuted by
trial testimony see page 700 enclosed; Russell v. State of Alaska, and Reynolds
v. State of Alaska, [Tr. 50], [Tr. 323, 327] and 3:17-cv-00221-TMB. And the fact
that she never reported that she had been raped! Count IV: is refuted by my wife' s
possession of the gun on the night in question [Tr. 322], [Tr. 498-99]. She was
also responsible for inappropriately purchasing this gun for a felon, intentionally.,
knowingly, and recklessly. To set up this malicious prosecution. See page 697
enclosed. The evidence of strangulation is refuted' on cross examination by
attorney Jeff Robinson of Sart Nurse Debby Hurlburt page [Tr. 415, 416, 417, 418,
419, 420.] Clearly. See Appendix B-l-761: Pg. 701, 697, 700.
SIRICHAND V. WASHINTIEN: Counsel's tactics v»as not objectively reasonable.
MIRANDA V. ARIZONA: an illegal interrogation.
6 of 14

OPPINIONS
(1)

I am going to try to keep these facts as brief as possible

because I tend to get too wordy. Appendix A-l-46. As you can see I have already
made Criminal Complaints to the Department of Law 125 Trading Bay Drive, Suite
100 Kenai Alaska 99611-7717. The Complaints speak for themselves.
(2)

I have no complaints about the Judgment for Cost of Appointed Attorney.

Except some of her factual assertion are fabricated even in her A. PRAYER FOR
RELIEF. Agree. -B.. STATEMENT OF FACTS.

Background: 3. Agree but not a legal

separation. 4.; Agree , 5. Agree, 6. Agree, 7. Agree, 8. Agree, but she initially
lied and said she was at her friends house Dde"tobe deceptive about the relationship
with Celestino Lee., 9. Disagree lie., 10. Disagree lie., 11. Disagree lie., 12.
Disagree lie; never pulled hair, one strike to hands covering her face, no serious
physical injury., 13. Agree., 14. Agree., 15. Disagree, only part true was my
attempt at suicidal ideation., T6. Disagree lie; trial testimony refutes: [Tr.322].,
17. Disagree lie; inconsistent statement amounting to perjury: [Tr.322]., 18. Agree,
but not in the sequence on state counsel or the prosecution: we made love and went
home and checked on the kids after we had reconciled., 19. Disagree, there is a
lot of details leftout: her calling me about her laptop, me bringing it to her,
and then her waiting until I went to sleep before calling the police., 20. Agree.,
21. Agree., 22. Disagree: indicted on 8 charges she left out fourth degree assault,
. 23. Disagree: found guilty of l) Sexual assault in the first degree (vaginal sex);
2) Kidnapping in the first degree; 3) Assault in the second degree (choking); 4)
Assault in the third degree (fear assault with weapon): had she reviewed the trial
transcripts she would have known this; attorney Elizabeth D. Friedman.

7 of 14

Appeal:
24. Agree., 25. Agree: but counsel should have argued insufficient evidence
on all remaining charges., 26. Agree: completely flawed., 27. Agree., 28. Agree:
this was abuse of process, and discretion.,
Post Conviction Relief Proceeding:
29. Agree., 30. Agree., 31. Agree., 32. Agree., 33. Agree., 34. Agree., 35.
Agree., 36. Agree., 37. Agree., 38. Agree., 39. Agree., 40. Agree., 41. Agree.,
C.

STATEMENT OF POINTS RELIED UPON FOR REVERSAL.
1.

Torrence's Rights to a Competent Attorney Are Guaranteed by the
United States Constitution.

4-2. Agree., 43. Agree., 44. Agree,. 45. Agree.,
2.

An Attorney's Trial Performance Does Not Meet "Minimal Competence"
if It Objectively Prejudiced the Client by Bolstering the State's
Case.

46. Agree., 47. Agree.,
a.

C.T.'s Alleged Inconsistent Testimony about the Kidnapping.

48. Agree that this was alleged but not what happened: allegations are fabricated
by my wife., 49. Agree that the impeachment was botched. 50. Disagree it was
relevent if she was properly impeached it would have shown she was fabricating
evidence., 51. Agree but she told the Sart Nurse and detective that I brandished
the gun while in the car which was true but not for the purpose of fear. It was
uncomfortable in my waist band so I move it underneath the driver side front seat.
She knew I aways carried this gun for my protection., 52. Agree because she had
fabricated this allegation initially., 53. Agree., 54. Agree., 55. Agree., 56.
Agree.

57. Agree with the allegation although not true. 58. Agree., 59. Agree.,
b.

Impeachment on Amount of Marijuana C.T. Smoked.

60. Agree, but he was suppose to use the Gun Application to impeach her 1) for

8 of 14

lying about the unlawful use, 2) for who she bought the gun for my person; felony
purchase class C, and B felonies.
C.

61. Agree.,

Strangulation Marks or "Hickey" Marks - the Cross-Examination
Reinforced the Strangulation Evidence.

62. Agree, but on cross with attorney Jeff Robinson the Strangulation evidence
was refuted in its entirety., 63. Disagree entirely because of Jeff Robinson cross
examination but Chong Yim was still ineffective in his presentation., 64. Agree.,
65. Agree but she was fabricating.,
3.

The Trial Judge Was Force to Intervene to Protect Torrence from His
Counsel's Incompetence: Counsel ignored the Judges Advice.

66. Agree totally!., 67. Agree, but it also proved she was fabricating the
evidence of rape after the police, detectives, and Sart Nurse told her it was
rape: she was just being an opportunist.,
4.

Counsel Failed to Utilize the only Means of Impeaching C.T. - her
Financial Motive: This Was Not a Reasonable or Minimally Competent
Tactic.

68. Agree., 69. Agree., 70. Agree., 71. Agree totally!., 72. Agree.,
5.

The Court of Appeals Erroneously Concluded that the Representation
Met the '.'Minimal Competence" Standard. 73

73. Agree., 74. Agree.,
D.

STATEMENT OF CONCRETE REASONS.

75. Agree., 76. Agree., But it should of been more than a hearing it should
have been a reversal for ineffective assistance of counsel!.
On page 46 of conusel's application to The Supreme Court of The State of
Alaska Docketing Statement B. #6. Is the constitutionality of the state statue
or regulation at issue in this proceeding? Counsel checked NO! when this coudn't
be further from the truth.

9 of 14

OPPINIONS APPENDIX A-l-46
RESPONSE TO PETITION FOR HEARING
The State of Alaska has abused its discretion entirely in all of its
arguments: An adjudicator's failure to exercise sound, reasonable, and legal
decision making. 2. An appellate court's standard for reviewing a decision that
is asserted to be grossly unsound, unreasonable, illegal, and unsupported by the
evidence. And that is that I received effective assistance from trial counsel
Chong Yim who aided and abetted that state's malicious prosecution of my person
with the Fifth Amendment violation explained and enclosed within. But also the
State of Alaska evidence for even the final 4 charges are insuffient, and
uncorroborated by valid sufficient evidence and this is crystal clear from trial
evidence. See Trial trascripts enclosed, and evidence from 3:17-cv-00221-TMB also
enclosed. Also 3:15-CV-00134-SLG and Torrence v. Lapinskas, No. 17-35831.
ORDER GRANTING STATE'S MOTION TO DISMISS POST-CONVICTION
RELIEF APPLICATION
Judge Michael L. Wolverton decision to dismiss the application for post
conviction relief October, 19th, 2017 was abuse of discretion this is clear from
the evidence within this application for writ of Certiorari.
SUMMARY DISPOSITION
No.0111 -March 4, 2020
The Summary Disposition is another form of the State of Alaska's abuse of
process, and abuse of discretion in this 12 years plus malicious prosecution an
example of state official racketeering, and poor, and black folk exploitation.
This evidence is clear in this case being presented to this court for relief.

10 of 14

THE AFFIDAVIT OF CHONG YIM SPEAKS FOR ITSELF!
. The injuries are unsustantiated. See Cross exam-medical with Sart-Jeff Robinson.
. Miranda is unsustantiated, and improper.
. His rendition of the gun usage is unsustantiated.
. His strategy was foolish, and it aided and abetted the states malicious
prosecution as well as tainted the jurors: he played the fifth amendment
violation to the jurors at the closing ef trial because he soled the jurors
that I confessed.
. He knew that she bought the gun inappropriate but failed to impeach her
properly. The felony purchase, and lying on the App.
. He knew about the communication with law enforcement officer Mahlatini, Stanley
29469 Case No. 07-58829 Date 12/05/2007. Where she claimed I had threatened to
Shoot her, refused to give my name, and then turns around and purchased the gun
for an anniversary gift for my person 2/9/2008. Just two months later. This is
why I call this case fruit of the poisoness Tree doctrine. Although looking at
totality of evidence she was never, never, credible! See police report enclosed,
also see gun report enclosed.
. Mr. Yim's performance was a state of malpractice ineffective assistance as counsel
aiding and abetting a malicious prosecution through deliberate incompetence. He
was the prosecutor see the states uncorroborated evidence that he presented in his
so call Motion To Supress, and Motion To Dismiss.
SEE EXCULPATORY EVIDENCEFROM CASE NO. 3:15-cv-00134-SLG
MOTION FOR CERTIFICATE OF APPEALABILITY FROM THE NINTH CIRCUIT COURT OF APPEALS
SEE PAGES 14-23

OF CASE 3:17-cv-00221-TMB FILED 3/21/18 OF 14 of 33.

This evidence will show that the entire states case was hearsay with no
probative value. The institution of a criminal proceeding for an improper purpose
and without probable cause. And they have continued this case for 12 years without
sufficient corroborated evidence. See pages 693-703 Appendix B-l-761

11 of 14

REASONS FOR GRANTING THE PETITION
(1)
Every question presented in this case was violated: the arrest was obtained with
inconsistent, and fabricated testimony which produced the arrest of my person.
Then came the illegal search of my property designed to accomplish the illegal
fruits of the arrest the (9mm hand gun) purchased by my wife to set up the
illegal arrest. This was a class C, and B felony purchase: perjury by inconsisstatements, and purchase of a weapon for a felon. See gun report. The State of
Alaska was then able to (4) deprive my person of life, liberty, and property
without fair and impartial due process of law as well as equal protection: Fourth,
Fifth, and Fourteenth Amendment rights.

C2)

Counsels: Chong Yim pretrial and trial counsel, Kevin Brady (PCR) counsel,

Marcie McDannel (PCR) counsel, and Elizabeth D. Friedman was clearly deficient in
presenting the available exculpatory evidence in this case and thus aided and
abetted the malicious prosecution of my person. This is conduct that in Alaska
and the United States Official misconduct Sec. 11.56.850 Article 6 Abuse of Office
a class A misdemeanor as well as interference with contract rights Sec. 11.76.110
Chapter 76. Miscellaneous Offenses; for their deliberate deficient performances in
presenting the facts of this case.
Chong Yim lcnew about the exculpatory evidence surrounding the gun including
the witness Robert Chapman who witnessed the gun and the receipt of the gun shown
to him in my SUV, but fail to gather this compulsory process. Which would have
proved my wife bought the gun for me refuting her testimony: that I came and tools
the gun while she was away. The reason for the application for the gun sale and
the video evidence was to show that my wife testified falsely. Chong Yim refused
to use this evidence appropriately.

12 of 14

.

When the police officers arrested my person the gun was on the bed in plain
view as they requested. But they left the gun case, ammonition, and the receipt
underneath my bed. Which would have also proved my wife was lying about the gun
purchase. These facts violate my rights under the Sixth and Fourteenth Amendment.
(3)

When you listen carefully to my wife's interviews and testimonies it is

clear that she is fabricating evidence before and after my arrest violating my
rights under the Fourth Amendment. She did this to tamper with the evidence at
my house - my property; the gun case and the receipt for the gun. She knew that
the truth about the gun would be problematic for her fabricated testimony.
(4)

The grand jury indictment is completely flawed from the begining to the

end. Judge Wolverton should have dismissed the indictment in its entirety under
Rule of evidence 6 (q) insufficient evidence. And the Fifth Amendment violations
prior to the grand jury on the day of arrest (3) compelled to engage in self­
incrimination on a criminal matter. See enclosed the Motion To Suppress. Which
is the States case and outrageous violation of my constitutional rights to be
free from an illegal interrogation.
(5)

$20,000.00 bail reduced to $10,000.00 while the State of Alaska had

taking away my means to any financial support and wrongfully convicted my person
by tainting the jurors with incompetent counsel (Chong Yim); with Fifth Amendment
issues of self-incrimination and due process, Sixth Amendment issues incompetent
counsel and denial of compulsory process. There was abuse of discretion from the
States Cousel with the deal outside the presence of the jurors to reduce the (8)
charges down to (4) with Judge Wolverton's involvement. I objected to this deal.
See pages [Tr. 781-82].
Without the intervention of this court the inmate petitioner will remain
in prison wrongfully for the rest of his pertinent life until age 73. Due to
deliberate incompetent prejudicial counsel, abuse of process and discretion in
this malicious prosecution.

'

13 of 14

Every official involved in this case to date has aided and abetted this
Malicious Prosecution, before and after the facts, including the Department of
Corrections; interference, with the exceptions of Trial attorney Jeff Robinson
Co-Counsel, and John Page 111 appeal attorney. But out of all these officials
Chong Yim trial counsel is the rnqst culpable; he played the role of prosecutor
not protector in this malicious prosecution. His statements in his sworn Affidavit
are sound proof of his deliberate prejudicial incompetence in the post conviction
relief dated December 2016 enclosed in Appendix A-l-46. I also enclosed his Motion
To Dismiss and his Motion To Supress to show his deliberate incompetence.

CONCLUSION
This case should be reversed because the petitioner has shown
this court that he has received ineffective assistance of counsel.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

9^x4" !j rb)rk0iV'£>

Date:

mh 3Q30

14 of. 14

